Inspections Report T.O.C.
DEPARTMENT OF JUSTICE
OFFICE OF THE INSPECTOR GENERAL
INSPECTION REPORT
INSPECTION OF INMATE HEALTH CARE COSTS IN
THE BUREAU OF PRISONS
November 1996
Report Number I-97-01
TABLE OF CONTENTS
EXECUTIVE DIGEST
BACKGROUND
BOP's
Health Care Mission and Services
Inmate
Health Care Costs
Factors
Contributing to Inmates' Health Care Costs
BOP's Medical
Cost Containment Efforts
BOP's Monitoring
of Inmate Health Care Costs
RESULTS OF THE
INSPECTION
Community
Provider Services
Additional
Managed Care Initiatives
Medical Guard
Escort Service
Recommendation
Staffing of
Mid-level Practitioner, Nurse, and Emergency Medical
Technician/Paramedic Positions
Recommendation
Inmate Fees for BOP
Health Care
Implementation
Considerations
Feasibility
of a Co-Payment System
Anticipated
Benefits of a Co-Payment System
Recommendation
APPENDIX I - Status of the
Management Control Report Corrective Actions
APPENDIX II - Definitions
of Health Care Cost Categories
APPENDIX III - Medical
Care Services Indexes
APPENDIX IV - BOP Health
Services Positions
APPENDIX V - Scope and
Methodology
APPENDIX VI - Abbreviations
APPENDIX VII - Bureau of Prison's Response to the Draft Report
- NOT INCLUDED IN THIS HYPERTEXT VERSION.
APPENDIX VIII - Office of
the Inspector General's Analysis of Management's Response
EXECUTIVE DIGEST
The Bureau of Prisons (BOP) is required by Federal regulations
to provide suitable medical care to all inmates in its custody.
Under the supervision of the Medical Director, the Health
Services Division (HSD) provides overall direction for the BOP's
inmate health care program, using Public Health Service officers
and BOP health care practitioners to deliver inmate health care.
The rising costs of inmate health care have been a significant
concern to the BOP as it furnishes medical, dental, and mental
health services that are consistent with acceptable community
standards. Between fiscal years (FY) 1990 and 1994, inmate health
care costs increased by $124.8 million, or 91 percent. In this
inspection, we examined factors contributing to inmates' health
care costs, the BOP's initiatives to contain these costs, and the
BOP's corrective actions to the Department of Justice's
Management Control Report.
The BOP attributed most of the increase in inmate health care
costs to several factors beyond its control: namely, a growing
inmate population, the general aging of the inmate population,
inflation in the medical services industry, and an increase in
the number of inmates with drug-related conditions. The BOP also
identified two other factors that contributed to increased
expenditures: the growth in the number of incoming inmates
needing immediate medical treatment, which frequently resulted in
referrals to community care providers, and the implementation of
medical community treatment standards.
The BOP has implemented numerous inmate health care cost
containment initiatives to combat rising costs and to meet the
health care demands of a growing inmate population. The BOP's Long-term
Strategic Goals for 1996...and Beyond contain four specific
objectives that directly relate to inmate health care cost
containment: (1) health promotion and disease prevention; (2)
quality assessment and improvement; (3) managed care initiatives;
and (4) special program needs of physical disabilities, chronic
and terminal illnesses, and geriatric offenders.
We found that, overall, the BOP's initiatives kept per capita
costs from rising significantly. The BOP's average health care
cost per inmate increased by 27 percent between FYs 1990 and
1994, which is less than the rise in the consumer price index for
medical care during the same period. However, our review
disclosed that some health care cost categories--community
provider services, medical guard escort service, and
salaries--have continued to increase in spite of the BOP's
containment efforts. We believe the BOP could take additional
actions to control some costs.
· Community Provider Services - The BOP purchases
health services from community care providers to supplement
its direct health care delivery system. In 1990 the BOP
implemented a community provider services contract initiative
to reduce costs. We found that 97 percent of the BOP
institutions have community care provider contracts affording
them discounted rates for services. As a result of the
initiative, the BOP has limited the increase in total
community provider services costs. However, we found that, on
a per capita basis, community provider services costs still
increased at a higher rate than the consumer price index for
medical care. We believe the BOP could further enhance its
efforts to control costs by identifying data to measure
community provider services activities and review the data
for patterns and trends.
· Medical Guard Escort Service - When inmates
require medical treatment outside an institution, the inmates
are escorted by BOP correctional staff to the medical
facility and guarded at the community medical facility by
either BOP correctional staff or contract guards. Although
some minimum and low security level institutions use contract
guards for inmates' medical visits, we believe a much greater
number of institutions could use contract guards. Thus,
overtime expenditures for BOP employees in an off-duty status
who serve as medical guards would be reduced. Wardens must
take a more active role in acquiring guard service contracts
and make the ultimate determination for the use of contract
guards.
· Staffing of Mid-level Practitioner and Nurse
Positions - We found that mid-level practitioners
comprised 27 percent of the BOP's health service positions
and that nurses comprised 19 percent. We recommend that
Wardens assess their current staffing mix of mid-level
practitioners and nurses in an effort to use lower graded
positions whenever possible without reducing the level of
inmate care. If an institution utilized a greater percentage
of nurses rather than mid-level practitioners, the BOP would
reduce salary expenditures.
In addition to these recommended cost containment actions, we
believe the BOP could effectively implement an inmate co-payment
fee for health care services and could anticipate the following
benefits: (1) a decrease in the number of inmates attending sick
call, (2) an increase in inmate accountability and responsibility
for their own health care, and (3) an awareness by the public of
inmates' financial participation in the cost of medical services
received during incarceration. If the BOP receives statutory
authority to collect a medical co-payment fee from inmates, the
amount of revenue would be affected by the availability of
inmates' financial resources and ongoing administrative costs.
#####